March 7, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Review of New Mexico Medicaid Personal Care Services Provided by Ambercare
                Home Health (A-06-09-00062)


Attached, for your information, is an advance copy of our final report on New Mexico Medicaid
personal care services provided by Ambercare Home Health. We will issue this report to the
New Mexico Human Services Department, Medical Assistance Division, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Patricia
Wheeler, Regional Inspector General for Audit Services, at (214) 767-8414 or through email at
Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-09-00062.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
March 12, 2012

Report Number: A-06-09-00062

Ms. Julie B. Weinberg
Director, Medical Assistance Division
New Mexico Human Services Department
2025 South Pacheco
Santa Fe, NM 87504

Dear Ms. Weinberg:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Mexico Medicaid Personal Care Services
Provided by Ambercare Home Health. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Paul Garcia, Audit Manager, at (512) 339-3071 or through email at
Paul.Garcia@oig.hhs.gov. Please refer to report number A-06-09-00062 in all correspondence.

                                             Sincerely,




                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Julie B. Weinberg


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF NEW MEXICO MEDICAID
PERSONAL CARE SERVICES PROVIDED
   BY AMBERCARE HOME HEALTH




                        Daniel R. Levinson
                         Inspector General

                           March 2011
                          A-06-09-00062
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services Department,
Medical Assistance Division (the State agency), is responsible for administering the Medicaid
program.

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an intermediate care facility for the
mentally retarded, or an institution for mental disease. The services must be (1) authorized by a
physician pursuant to a plan of treatment or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State agency; (2) provided by an attendant who
is qualified to provide such services and who is not the recipient’s legally responsible relative;
and (3) furnished in a home and, at the State agency’s option, at another location. Examples of
personal care services include, but are not limited to, cleaning, shopping, grooming, and bathing.

The State agency contracts with a third-party assessor to perform an in-home assessment of each
recipient that determines the types and amounts of care needed and to develop a personal care
service plan. In addition, New Mexico law requires a supervisor from the personal care services
provider agency to visit each recipient or his/her personal representative in the recipient’s home
monthly. The State agency periodically reviews provider agencies to ensure compliance with
Federal and State requirements.

The State agency reported to CMS personal care services expenditures of approximately
$433 million ($309 million Federal share) from October 1, 2006, through September 30, 2008.
Of that amount, Ambercare Home Health (Ambercare), a personal care services provider in
Belen, New Mexico, received $33,769,207 ($24,132,420 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency ensured that Ambercare’s claims for
reimbursement of Medicaid personal care services complied with certain Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always ensure that Ambercare’s claims for Medicaid personal care
services complied with certain Federal and State requirements. Of the 100 claims in our sample,
77 (totaling $86,192) complied with requirements, but 23 (totaling $25,380) did not. Thirteen of



                                                  i
the twenty-three claims were partially allowable. The allowable portion of the 13 claims was
$16,337. Those 23 claims contained a total of 24 deficiencies: 7 deficiencies on insufficient
attendant qualifications and 17 deficiencies on other issues. As a result, Ambercare improperly
claimed $9,043 for the 23 claims.

Based on our sample results, we estimated that Ambercare improperly claimed at least $888,683
(Federal share) for personal care services during the period October 1, 2006, through
September 30, 2008.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $888,683 paid to Ambercare for unallowable
       personal care services and

   •   ensure that personal care services providers maintain evidence that they comply with
       Federal and State requirements.

AMBERCARE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Ambercare disagreed with our findings on billing
records. Ambercare stated that it “offered several remedies to the auditor for his consideration,
and were denied that opportunity” and that it “found an incorrect billing total of $218.55
compared to the audit findings.” Ambercare’s comments are included as Appendix D. We
excluded the attachments to Ambercare’s comments because they contained personally
identifiable information.

We disagree that we denied Ambercare the opportunity to provide remedies for our findings.
During our review, we met with Ambercare officials at Ambercare’s main office in Belen,
New Mexico, on several occasions to discuss our preliminary findings, consider Ambercare’s
views, and review its supporting documentation. Moreover, we reviewed the attachments that
Ambercare provided with its comments. Based on the new documentation, we determined that
14 additional claims were allowable. We revised the findings and recommendations accordingly.

We also disagree with Ambercare’s conclusion that it owes only $218.55 for our sampled claims.
We analyzed the documentation provided by Ambercare in accordance with generally accepted
government auditing standards and stand by our reported findings and recommendations.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its written comments on our draft report, the State agency said that it generally agreed with
our findings for the specific claims reviewed. However, the State agency disagreed with our
recommended refund amount paid to Ambercare for improper claims submitted for the audit
period. The State agency said that four categories of deficiencies (i.e., training documentation,


                                                 ii
prior approval of legal guardian, cardiopulmonary resuscitation certification, and physician
authorization) did not justify withholding Federal funds because only a small number of files
were deficient. The State agency also said that the documentation requirements for three of the
four categories (i.e., training documentation, prior approval of legal guardian, and CPR
certification) are not Federal requirements; they are State requirements, which do not require
recovery of payments. The State agency added that although two categories of deficiencies
(i.e., an unsupported number of units claimed and services paid while the recipient was in the
hospital) support the conclusion that overpayments were made, the deficiencies did not support
extrapolating to the population because (1) the findings do not reveal a pattern of noncompliance
and (2) the percentage of claims that were overpayments was within the tolerance limits
established by certain Federal programs.

The State agency’s comments are included in their entirety as Appendix E.

We stand by our reported findings and recommendations. The deficiencies cited in the report are
based on significant service-related requirements and are too numerous to be dismissed as
infrequent occurrences. Further, Federal requirements are applicable to the three categories with
documentation deficiencies because to be considered qualified as defined by Federal statutes and
regulations, attendants must meet State attendant requirements.

Regarding the State agency’s assertion that the findings do not reveal a pattern of
noncompliance, extrapolating the results of a statistically valid sample to a population has a high
degree of probability of being close to the results of a 100-percent review of the same
population. Our statistically valid estimates support our findings and estimated overpayment
amount.

Finally, pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to
provide an independent assessment of U.S. Department of Health and Human Services programs,
operations, grantees, and contractors. The tolerance limits the State agency cited in its comments
about certain Federal programs do not apply to our audits.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION .....................................................................................................................1

          BACKGROUND .............................................................................................................1
              New Mexico’s Personal Care Services Program .................................................1
              Federal and State Requirements ..........................................................................1
              Personal Care Services Expenditures...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

            ATTENDANT QUALIFICATION DEFICIENCIES ...................................................4
                Annual Training ..................................................................................................4
                Cardiopulmonary Resuscitation Certification......................................................5

          OTHER DEFICIENCIES ................................................................................................5
               Unsupported Units Claimed .................................................................................5
               Missing Prior Approval for Personal Care Services Provided by a
                Legal Guardian or Attorney-in-Fact .................................................................5
               Personal Care Services Paid for Dates Recipient Was in the Hospital ................5
               Physician Authorization .......................................................................................5

          EFFECT OF DEFICIENCIES .........................................................................................5

          RECOMMENDATIONS .................................................................................................6

          AMBERCARE COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE……………………………………………………………………………6

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE……………………………………………………………………………6
               State Agency Comments ......................................................................................6
               Office of Inspector General Response .................................................................7

OTHER MATTERS

          MEAL PREPARATION AND HOUSEKEEPING SERVICES PAID FOR
           RECIPIENTS LIVING WITH ATTENDANTS ...........................................................9




                                                                    iv
    ATTENDANT CHARGED SAME TIME FOR TWO RECIPIENTS............................9

APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: REASONS FOR DEFICIENT CLAIM LINES

    D: AMBERCARE COMMENTS

    E: NEW MEXICO HUMAN SERVICES DEPARTMENT COMMENTS




                                      v
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services Department,
Medical Assistance Division (the State agency), is responsible for administering the Medicaid
program.

New Mexico’s Personal Care Services Program

The New Mexico personal care services program provides a wide range of services for the
elderly and individuals with a qualifying disability. The goal of the program is to improve
recipients’ quality of life and prevent them from having to enter a nursing facility. The State
agency requires recipients to obtain a physician authorization form that documents the medical
need for personal care services. For each recipient, the State agency contracts with a third-party
assessor that performs an in-home assessment to determine the types and amounts of care needed
and to develop a personal care services plan (PCSP). The third-party assessor uses recipient
assessments and physician authorization forms to prepare recipients’ weekly schedule of
services, which typically are in effect for 1 year.

Federal and State Requirements

The State agency must comply with Federal and State requirements when determining and
redetermining whether recipients are eligible for personal care services. Pursuant to section
1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167), personal care
services may be provided to individuals who are not inpatients at a hospital or residents of a
nursing facility, an intermediate care facility for the mentally retarded, or an institution for
mental disease. The services must be (1) authorized for an individual by a physician pursuant to
a plan of treatment or, at the State agency’s option, otherwise authorized in accordance with a
service plan approved by the State; (2) provided by an attendant who is qualified to provide such
services and who is not the recipient’s legally responsible relative; and (3) furnished in a home
and, at the State agency’s option, at another location.

Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.
Circular A-87, Attachment A, section C.1.c., states that to be allowable, costs must be authorized
or not prohibited by State or local laws or regulations.

New Mexico Administrative Code (NMAC) section 8.315.4.9(A) states that personal care
services are delivered pursuant to a PCSP and (1) include a range of services to recipients who



                                                1
are unable to perform some or all activities of daily living because of a disability or functional
limitation(s); (2) permit an individual to live in his or her home rather than an institution and to
maintain or increase independence; and (3) include, but are not limited to, bathing, dressing,
grooming, eating, and shopping.

NMAC section 8.315.4.11A(17) states that provider agencies are responsible for maintaining
appropriate records of services provided to recipients. NMAC section 8.315.4.11 defines
(1) attendant qualifications related to tests for tuberculosis, annual training, cardiopulmonary
resuscitation (CPR) and first aid training, and criminal background checks and (2) the provider
agency’s responsibility to maintain documentation on attendant qualifications. NMAC section
8.315.4.11A(31) requires provider agencies to conduct a monthly supervisory visit with each
recipient or his or her personal representative in the recipient’s home. The State agency
periodically reviews personal care services provider agencies to ensure their compliance with
Federal and State requirements. NMAC section 8.315.4.11A(21) requires the State agency to
review a written justification for, and issue an approval of, instances in which any personal care
services will be provided by the recipient’s legal guardian or attorney-in-fact.

Personal Care Services Expenditures

The Federal Government’s share of costs is known as the Federal medical assistance percentage
(FMAP). From October 1, 2006, through September 30, 2007, the FMAP in New Mexico was
71.93 percent; from October 1, 2007, through September 30, 2008, the FMAP was 71.04 percent.
The State agency reported to CMS personal care services expenditures of approximately
$433 million ($309 million Federal share) from October 1, 2006, through September 30, 2008.
Of that amount, Ambercare Home Health (Ambercare), a personal care services provider in
Belen, New Mexico, received $33,769,207 ($24,132,420 Federal share).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that Ambercare’s claims for
reimbursement of Medicaid personal care services complied with certain Federal and State
requirements.

Scope

This audit covered the $33,769,207 the State agency paid to Ambercare for 29,855 claim lines
(hereafter referred to as “claims”) paid from October 1, 2006, through September 30, 2008. We
limited our review of internal controls to the State agency’s oversight of personal care services
providers and Ambercare’s procedures for maintaining documentation related to attendants and
recipients.

We conducted our fieldwork at the State agency office in Santa Fe, New Mexico; the third-party
assessor’s office in Albuquerque, New Mexico; and the Ambercare office in Belen,
New Mexico.



                                                  2
Methodology

To accomplish our objective, we:

       •   reviewed Federal requirements for the Medicaid personal care services program;

       •   reviewed State documents for the personal care services program: the New Mexico
           State plan amendment (Attachment 3.1-A, effective September 1, 2000) and the
           NMAC;

       •   interviewed State agency officials to gain an understanding of the personal care
           services program and the State agency reviews completed before the start of our
           fieldwork;

       •   obtained from the State agency all claims data for personal care services that were
           paid from October 1, 2006, through September 30, 2008, and reconciled the totals to
           the amounts claimed during the same period on the Form CMS-64, Quarterly
           Medicaid Statement of Expenditures for the Medical Assistance Program;

       •   totaled the paid-claims data by provider;

       •   selected Ambercare to review based on payment for personal care services claims it
           received totaling $33,769,207 for the audit period;

       •   selected a random sample of 100 Ambercare claims (Appendix A);

       •   met with Ambercare officials to gain an understanding of Ambercare’s policies and
           procedures and of documentation in Ambercare’s recipient and attendant personnel
           files;

       •   obtained recipient documentation from the third-party assessor and Ambercare for
           each sampled item;

       •   identified the attendant(s) included in each sampled claim and obtained
           documentation Ambercare maintained in the identified attendant personnel files;

       •   obtained from the New Mexico Department of Health documentation of criminal
           background checks on the identified attendants;

       •   evaluated the documentation obtained for each sampled item to determine whether it
           complied with Federal and State Medicaid requirements;

       •   discussed the results of our audit with officials from CMS, the State agency, and
           Ambercare;




                                                3
       •   gave Ambercare an opportunity to provide any additional support for claims with
           deficiencies;

       •   calculated the value of the unallowable reimbursement Ambercare received for the
           sampled claims; and

       •   estimated the unallowable Federal Medicaid reimbursement paid for the 29,855
           claims (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always ensure that Ambercare’s claims for Medicaid personal care
services complied with certain Federal and State requirements. Of the 100 sampled claims, 77
claims (totaling $86,192) complied with requirements, but 23 (totaling $25,380) did not.
Thirteen of the twenty-three claims were partially allowable. The allowable portion of the 13
claims was $16,337. Those 23 claims contained a total of 24 deficiencies: 7 deficiencies on
insufficient attendant qualifications and 17 deficiencies on other issues. As a result, Ambercare
improperly claimed $9,043 for the 23 sampled claims.

See Appendix C for details of the deficiencies identified by sampled claim.

Based on our sample results, we estimated that Ambercare improperly claimed at least $888,683
(Federal share) for personal care services during the period October 1, 2006, through
September 30, 2008.

ATTENDANT QUALIFICATION DEFICIENCIES

Annual Training

NMAC section 8.315.4.11A(2) requires provider agencies to provide all attendants a minimum
of 12 hours of training per year; section 8.315.4.11A(33) requires provider agencies to maintain
in attendants’ files copies of documentation that all training had been completed. For 6 of the
100 sampled claims, Ambercare could not provide evidence that the attendants had completed
12 hours of annual training for the calendar year of the dates of service.




                                                4
Cardiopulmonary Resuscitation Certification

NMAC section 8.315.4.11A(2)(d) requires provider agencies to maintain in attendant files copies
of all CPR certifications and to ensure that these certifications are current. 1 For 1 of the 100
sampled claims, Ambercare could not provide evidence that the attendant was certified in CPR
on the dates of service.

OTHER DEFECIENCIES

Unsupported Units Claimed

NMAC section 8.315.4.11A(13) requires provider agencies to maintain records that fully
disclose the extent and nature of the services furnished to the recipient. For 13 of the 100
sampled claims, Ambercare did not have evidence to support the number of units claimed for
attendant services.

Missing Prior Approval for Personal Care Services Provided by a Legal Guardian or
Attorney-in-Fact
NMAC section 8.315.4.11A(21) requires prior State agency approval for any personal care
services provided by the recipient’s legal guardian or attorney-in-fact. For 2 of the 100 sampled
claims, Ambercare could not provide evidence that the State agency issued prior approval.

Personal Care Services Paid for Dates Recipient Was in the Hospital

Federal regulations (42 CFR § 440.167) and NMAC section 8.315.4.13B prohibit payment for
personal care services provided for recipients in a hospital. For 1 of the 100 sampled claims,
Ambercare was paid for personal care services for dates the recipient was in a hospital.

Physician Authorization

Federal regulations (42 CFR § 440.167) require personal care services to be authorized by a
physician pursuant to a plan of treatment or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State. Also, NMAC section 8.315.4.16A(1)
requires third-party assessors or their designees to maintain for each recipient evidence of a
physician authorization form signed by a physician, physician assistant, nurse practitioner, or
clinical nurse specialist. For 1 of the 100 sampled claims, Ambercare could not provide
documentation of a physician authorization.

EFFECT OF DEFICIENCIES

Based on our sample, we estimated that Ambercare improperly claimed at least $888,683
(Federal share) for personal care services.


1
  The entities that provided the training determined how long the certificates were valid, typically 1 to 3 years from
the date the attendants passed the courses.


                                                           5
RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $888,683 paid to Ambercare for unallowable
       personal care services and

   •   ensure that personal care services providers maintain evidence that they comply with
       Federal and State requirements.

AMBERCARE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Ambercare disagreed with our findings as far as
billing records are concerned. Ambercare stated that it “offered several remedies to the auditor
for his consideration, and were denied that opportunity.” Ambercare also stated that it had
“compared our records with the State of New Mexico Portal billing entries and found an
incorrect billing total of $218.55 compared to the audit findings.” Ambercare’s comments are
included as Appendix D. We excluded the attachments because they contained personally
identifiable information.

We disagree that we denied Ambercare the opportunity to provide remedies for our findings.
During our review, we met with Ambercare officials at Ambercare’s main office in Belen,
New Mexico, on several occasions to discuss our preliminary findings, consider Ambercare’s
views, and review its supporting documentation. Moreover, we reviewed the attachments that
Ambercare provided with its comments. Based on the new documentation that Ambercare
provided, we determined that 14 claims were allowable. We revised the findings and
recommendations accordingly.

We also disagree with Ambercare’s conclusion that it owes only $218.55 for our sampled claims.
We analyzed the documentation provided by Ambercare in accordance with generally accepted
government auditing standards and stand by our reported findings and conclusions.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

State Agency Comments

In its written comments on our draft report, the State agency said that it generally agreed with
our findings for the specific claims reviewed but disagreed that our findings support the
recommended refund amount.

The State agency said that four categories of deficiencies (i.e., training documentation, prior
approval of legal guardian, CPR certification, and physician authorization) involved no
demonstrated overpayments and that the deficiencies did not justify withholding Federal funds.
Rather, the findings revealed that a few files were missing a document necessary to satisfy a


                                                 6
particular requirement for otherwise eligible services. The State agency also said that the
documentation requirements in question for three of the four categories (i.e., training
documentation, prior approval of legal guardian, and CPR certification) are not Federal
requirements; they are State requirements, which do not require recovery of payments.

The State agency agreed that although two categories of deficiencies (i.e., an unsupported
number of units claimed and services paid while the recipient was in the hospital) support the
conclusion that overpayments were made, these deficiencies do not support extrapolating the
overpayments to all claims submitted during the 2-year review period. The State agency added
that the existence of one claim that was erroneously paid for services provided while the
recipient was in the hospital is not a sufficient basis on which to extrapolate to the population.
The State agency said that this incident appears to have been isolated and that it does not reflect a
pattern or practice of noncompliance by Ambercare. The State agency said that because these
overpayments were less than 2 percent of all payments reviewed, they were within tolerance
limits established in certain Federal programs and that standard Federal policy in such
circumstances is to seek recovery only for the overpayments identified and not to extrapolate the
results. 2

The State agency’s comments are included in their entirety as Appendix E.

Office of Inspector General Response

The deficiencies cited in the report, including annual service-related training, prior approval of
legal guardianship, CPR training, and physician authorization, are based on significant service-
related requirements. Taken as a whole, these deficiencies are too numerous to be dismissed as
just a few missing files, particularly when the deficiencies in question are related to quality-of-
care issues.

We disagree that the documentation requirements in question for three of the four categories the
State agency mentioned above were not Federal requirements. To provide a valid and payable
service, personal care services must meet Federal requirements in section 1905(a)(24)(B) of the
Act and implementing regulations at 42 CFR § 440.167, which require personal care services to
be provided by a qualified individual. To be qualified in New Mexico, an attendant must meet
the NMAC requirements related to the attendant qualifications discussed above. Therefore, an
attendant who does not meet the NMAC attendant qualification requirements cannot provide
valid personal care services as defined by Federal statutes and regulations. We based other
determinations of deficiencies on regulatory requirements that are integral to the definition of
personal care services and that must be met for the services to be payable as medical assistance.

The methodology we used to select the sample and the methodology we used to evaluate the
results of that sample have resulted in an unbiased extrapolation (estimate) of Ambercare’s
personal care services. As stated in New York State Department of Social Services, DAB 1358
(1992), “… sampling (and extrapolation from a sample) done in accordance with scientifically

2
  The State agency cited 42 CFR § 431.865 (which establishes a 3-percent tolerance limit for eligibility errors in the
Medicaid Eligibility Quality Control Program) and 45 CFR § 205.42 (1980) (an outdated regulation that established
a 4-percent tolerance limit for payment errors in the Aid to Families with Dependent Children program).


                                                          7
accepted rules and conventions has a high degree of probability of being close to the finding
which would have resulted from individual consideration of numerous cost items and, indeed,
may be even more accurate, since clerical and other errors can reduce the accuracy of a 100%
review.”

The Ambercare sample was selected according to principles of probability (every sampling unit
has a known, nonzero chance of selection). In Sample Design in Business Research,
W. Edwards Deming (1960) states: “An estimate made from a sample is valid if it is unbiased or
nearly so and if we can compute its margin of sampling error for a given probability.”

The validity of the use of sampling and extrapolation as part of audits in connection with Federal
health programs has long been approved by courts. 3 In particular, “[p]rojection of the nature of
a large population through review of a relatively small number of its components has been
recognized as a valid audit technique.” 4 Courts have not determined how large a percentage of
the entire universe must be sampled in order to be held valid; 5 however, the type of sample used
here—a simple random sample—is recognized as a valid type of collection for extrapolation
purposes. 6 Further, such statistical sampling and such a methodology may be used in cases
seeking recovery against States and individual providers or private institutions alike. 7

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs,
operations, grantees, and contractors. Therefore, the payment error tolerance limits that the State
agency cited for the Medicaid Eligibility Quality Control program and the Aid to Families with
Dependent Children program do not apply to our audits.

We did not change our recommendations in response to the State agency’s comments. However,
we changed the estimated overpayment and recommended recovery, which were incorrect in the
draft report.




3
  See, e.g., State of Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D.Ga. 1977) (ruling that sampling and
extrapolation are recognized as valid audit techniques for programs under Title IV of the Act); Ratanasen v.
California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (ruling that simple random sampling and
subsequent extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois Physicians Union v.
Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982) (ruling that random sampling and extrapolation were valid statistical
techniques to calculate Medicaid overpayments claimed against an individual physician).
4
    State of Georgia v. Califano, 446 F. Supp. 404, 409 (N.D.Ga. 1977).
5
    Michigan Department of Education v. U.S. Department of Education, 875 F. 2d 1196, 1206 (6th Cir. 1989).
6
    Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993).
7
    Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).


                                                            8
                                      OTHER MATTERS

MEAL PREPARATION AND HOUSEKEEPING SERVICES PAID FOR RECIPIENTS
LIVING WITH ATTENDANTS

In reviewing supporting documentation for 47 of the 100 sampled claims, we found that $17,755
was charged for attendants’ meal preparation and housekeeping services even though the
attendants and recipients lived in the same home. The State agency paid a standard rate for each
unit of time charged for attendant care regardless of whether the attendant and recipient lived in
the same home. During the scope of this audit, there were no Federal or State regulations
addressing payment for services provided by an attendant who lives with the recipient.

The State has since amended its regulations (NMAC sections 8.315.4.16 and 17) to exclude
personal care attendant services that are normal household chores and that are provided by a
person who resides with the beneficiary.

ATTENDANT CHARGED SAME TIME FOR TWO RECIPIENTS

We identified two claims in which the attendant had documented simultaneously performing
services for two recipients who lived in the same household. The State agency paid a standard
rate for each unit of time charged for attendant care for each recipient. Although there are no
Federal or State regulations addressing whether attendants may charge for services provided
simultaneously to more than one recipient, paying twice for the same unit of time may not
always be reasonable.




                                                9
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of personal care services claim lines submitted by Ambercare Home
Health (Ambercare) for Federal Medicaid reimbursement by New Mexico for the 2-year period
October 1, 2006, through September 30, 2008. A claim line represented unit(s) of service paid
(0.25 hour equaled 1 unit of service).

SAMPLING FRAME

The sampling frame consisted of 29,855 personal care services claim lines (totaling $33,769,207)
from October 1, 2006, through September 30, 2008.

SAMPLE UNIT

The sample unit was a personal care services claim line for which New Mexico reimbursed
Ambercare.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 29,855. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate the
total value of overpayments.
           APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                 Sample Results

                                                                    Value of
           Value of                    Value of        No. of      Claim Lines
Sampling    Frame                       Sample      Claim Lines       With
 Frame     (Federal      Sample        (Federal        With        Deficiencies
  Size      Share)        Size          Share)      Deficiencies (Federal Share)

 29,855    $24,132,420     100          $79,847          23           $6,460




                       Estimated Value of Overpayments
           (Limits Calculated for a 90-Percent Confidence Interval)
                                (Federal Share)

                      Point estimate              $1,928,633
                      Lower limit                   $888,683
                      Upper limit                 $2,968,583
                     APPENDIX C: REASONS FOR DEFICIENT CLAIM LINES

    1 Missing Evidence of Annual Training
    2 Missing Evidence of Cardiopulmonary Resuscitation Certification
    3 Unsupported Units of Payment
    4 Missing Evidence of Prior State Agency Approval for Personal Care Services Provided
      by Recipient’s Legal Guardian or Attorney-in-Fact
    5 Services Paid for Dates Recipient Was in Hospital
    6 Missing Evidence of Physician Authorization




                                                          No. of           Sample Item
      No.        1     2      3      4     5      6     Deficiencies          No. 1
       1                      X                               1                 4
       2                                   X                  1                 5
       3        X                                             1                 6
       4                      X                               1                 8
       5        X                                             1                11
       6                      X                               1                12
       7                            X                         1                17
       8               X                                      1                22
       9        X             X                               2                49
      10                                          X           1                54
      11        X                                             1                55
      12        X                                             1                58
      13                            X                         1                63
      14                      X                               1                64
      15                      X                               1                68
      16                      X                               1                73
      17                      X                               1                84
      18                      X                               1                85
      19        X                                             1                91
      20                     X                                1                92
      21                     X                                1                93
      22                     X                                1                96
      23                     X                                1                99
     Total       6     1     13      2     1      1          24

Total deficiencies for “Attendant Qualification Deficiencies” (columns 1 and 2) is 7.
The total for “Other Deficiencies” (columns 3 through 6) is 17.


1
    We include the “Sample Item No.” column as a cross-reference to the specific sample item.
                                 Page 1 of 2

APPENDIX D: AMBERCARE COMMENTS
Page 2 of 2
                                                                                                        Page lofl8

APPENDIX E: NEW MEXICO HUMAN SERVICES DEPARTMENT COMMENTS



               New Mexico Human Services De artment
                                                                                     Medical Assistance Division
                                                                                                   PO Box 234B
   Susana Martinez, Governor
                                                                                       Santa Fe, NM B7504-2348
   Sidonie Squier, Secretary
                                                                     Phone: (50S) 827-3103; Fax: (505) 827-3185



       October 14, 2011



       MS. Patricia Wheeler 

       Regional Inspector General for Audit Services 

       Department of Health and Human Services 

       Office of the Inspector General 

       Office of Audit Services, Region VI 

        1100 Commerce Street, Room 632 

        Dalias, lX, 75242 



       Re: 	    New Mexico Response - Medicaid Personal Care Services by Ambercare Home Health 

                Number A-06-09-00062 



       Dear Ms. Wheeler:


       Enclosed are the New Mexico Human Services Department Medical Assistance Division's comments on
       the Department of Health and Human Services Office of Inspector General's draft audit report A-06-09­
       00062 titled "Review of New Mexico Medicaid Personal Care Services Provided by Ambercare Home
       Health."


       Thank you for the opportunity to comment. If you should have any questions, please contact Cathy
       Sisneros, Chief of the CoLTS Bureau at (50S) 827-3178 or bye-mail atCathySisneros@state.nm.us.


                                                             Sincerely,




                                                          ~~ Medical Assistance Division 

                                                             NM Human Services Department 

       Enclosure 



       Cc: 	    Sidonie Squier, HSD Secretary 

                Brent Earnest, HSO Deputy Secretary 

                Paula McGee, HSD/MAD Healthcare Operations Manager 

                                                                                                                                                                      Page 2 of18




                                                                        New Mexico Human Services Department (HSD)
                                                                                                    Medical Assistance Division (MAD)



              New Mexico Human Services Department Medical Assistance Division
              Comments on the Department of Health and Human Services Office of Inspector
              General Draft Audit Report A-06-09-0006Z on Medicaid Personal Care Services,
              Ambercare Home Health


Table of Contents
A.        Introduction ............................................................................. ............................................................. 1 


B.        Summary of Response....................................... " ..................... " ................................................... " ...... 1 


C.        Background ...........................................................................................................................................2 


O.        Alleged Ambercare Deficiencies .......................... .................. .............. .. .................... ..... ...................... 2 


     l.      Unsupported Attendant Service Units ................................................................. ............................. 3 


     2.      Missing Annual Training Documentation .................................................. .. ................ ...................... 3 


     3.      Missing Prior Approval of legal Guardian or Attorney-in-Fact Services .............. " ........................... 4 


     4.      Missing CPR Certification ... ..... ...... .. .. ................... ................... ............ ............. .... ..... ........................ 4 


     5.      Services Paid While Recipient Was in Hospital ............ ..................... .. .. .. .............. .. .. ..... ... .... .......... .. 5 


     6.      Missing Physician Authorization ............................................................................... " ..... ... .............. 5 


     7.      Other     pea Matters............................................................................................................................ 6 

E.        Subsequent State POlicy Changes and Corrective Measures ......................... .. .... .............. ....... ........... 6 


F.        Response to Proposed Overpayment Recovery ............. ............... .... .... .. .. ..................... ...... ...... .. ... ...... 7 


G. Conclusion ................................................................................................................................ ............. 8 

Appendix ... ... ...... ....... .... ....................... .. ............ ....... ........... .. ..................................... ............................... Al 

                                                                                                              Page 3 of 18




     A. Introduction
     In August 2011, the Department of Hea lth and Human Services ("DHHS") Office of Inspector General
     rO IG") issued a draft report entitled " Review of New Mexico Medicaid Personal Care Services Provided
     by Ambercare Home Health" ("Draft Aud it"l covering claims from October 1, 2006, to September 30.
     2008.    The Medical Assistance Division ("MAO" ) of the New Mexico Human Serv ices Department
     I"HSD") has reviewed the Draft Aud it, and collected information from the Coordination of Long Term
     Services program ("CoLTS" ) regarding the claims Ambercare submitted . MAD also requested, received,
     and reviewed documentation from Ambercare offered in support of its response to the Draft Audit. and
     met with Ambercare officials on September 27, 2011 to discuss this documentation. On October 4,
     2011, MAD spoke with OIG st aff regard ing the specific Ambercare claims al leged to be deficient.

     B. Summary of Response
     MAD' s review of the Draft Audit general ly confirms the OIG's findings concerning the specific cla ims
     selected for review. But MAD strongly disagrees that these findings support the recommendation of the
     Draft Audit that the State return $954,013 .00' in Fede ral fund s received in re sponse to the Ambercare
     claims and paid t o the provider.

     The Draft Audit identifies six categories of "deficiencies" with respect to 100 reviewed claims, selected
     on a random basis. It concluded that the claims (or portions of claim s) affected by t hese " deficiencies"
     amounted to $9,412.00.1• It then extrapolated this conclusion to the universe of Ambercare's claims for
     the two-year review period, to arrive at the amount of $954,013 .00 in alleged "overpayments" of
     Federal funds.

     With all due respect, we do not believe th is conclusion to be justified. Four of the six categories of
     "deficiencies" involved no demonst rated overpayment of any kind . Rather, the findings were only that
     particular documents were missing from the reviewed file . But the overall evidence produced by the
     review clearly demonstrates that the expenditures made were valid, notwithstand ing the absence of the
     missing documents.     Moreover, for the most part the missing documentation related not to federal
     requ irements but to state requirements. There is no basis for concluding that the applicable state law
     requires recovery of payments made to providers even if there was a violation of those state
     requirements.

     For the other two categories, wh ile MAD acknowledges that the find ings support a conclusion that there
     were overpayments of $1,977 .67, they do not support extrapolat ing that conclusion t o the universe of
     all claims submitted during the two-year review period . The find ings do not reveal a pattern of
     misclaim ing or any systemic failure on the part of the provider. The findings concerning unsupported
     attendant service unit cla ims are too isolated, and the one instance of a claim for services provided to a




     1 The Draft Audit examined only Ambercare's claims for personal care services. Throughout this
     response, when this response refers to the amount ofa claim, it refers only to the amount included on
     the persona l care services line of each claim, and excludes any amounts claimed for other Medicaid
     services.

                                                                                                          Page 11




*We reported this payment amount to the State agency in error.
                                                                                                              Page 4 of 18




recipient while the recipient was a hospital inpatient is dearly an aberration from the provider's normal
practices.

Overall, the findings of the Draft Aud it reveal a provider that has been extremely compliant with
applicable requirements.        At most, the few and mostly isolated "deficiencies," in significant part
reflecting no more that the inability to document every instance of compl iance, warrant the State
insisting upon a corrective action plan from the provider to assure its compliance with state
requirement s, its maintenan ce of co mplete records, and its careful review of claims to avoid submitting
claims for services not el igible for reimbursement.

C. Background
MAD is the single sti'lte agency respon sible for administering New Mexico's partidpation in the Medicaid
program . In 1999, the State began providing pea services to certain Medicaid-eligible individuals w ith a
disability or funct ional limitation who require assistanc • to enable them to live at home. rather than
being instit utio nalized.    PCO services are made avai lab le under New MeKico's State Medicaid Plan
approved by the Centers for Medicare and Med icaid Services ("eMS" ).

Pursuant to 42 CFR § 440 .167, New Mexico has developed       pce eligibility and service criteria.   Ind ividuals
aged 21 orolder who are eligible ' r full Medicaid coverage may receive PCO services when they require
assistance with at least 2 Activities of Daily Living ("ADlsH), as determined by a contracted Third Party
Assessor ("TPA" ).    pce benefiCiaries work with a Medicaid-approved provider to select a caregiver or
attendant. Ca regivers and attendants may be friends or familv members, so long as t hey have no
financial responsibility for the beneficiaries (e.g. spouses). State law provides that the consumer'sleBal
representative must receive approva l from MAD to be the paid caregiver. Service de livery models
include Consumer Self-Directed or Consumer Delegated models.

Although for most of the time period covered by the Draft Audit New Mexico's Medicaid Fiscal Agent for
claims payment processing processed all PCO provider bil ls under a fee-far-service model. on August I,
2008, the State implemented the ColTS Managed Care System that covers all primary, acute, and long­
term Medicaid and Medicare services, including PCO services . The ColTS program operates under CMS­
authorized, concurrent 1915(b} and (c) Medicaid waivers. Two managed care organizations (" MCOs") ­
AMERIGROUP Community Care Inc. and EVERCARE of New Mexico InC.-have contract s to provide
CoLTS services.      The     State phased-in CoLTS in certain geographic areas over the first year of
implementation, and phased in all counties by April 1, 2009 .


D. Alleged Ambercare Deficiencies
The DIG's Draft Audit concluded that MAO did not always ensure that Ambercare's cla ims for Medicaid
pea serv ices compl ied with applicable Federal and State requirements. The auditors determined that of
the 100 sample claims from October 1, 2006, through September 30, 2008, that were eKamined, 77
(totaling $102,160 were in full compliance, and 23 (total ing $9,412) were not. The auditors further
determined that 13 of the 23 non-compliant claims were partially allowab le. The Draft Audit identified
25 alleged deficiencies contained In t hose 23 claims that fall Into the following 6 categories :



                                                                                                      Z I P'ge
                                                                                                        Page 50f18




     •	  Unsupported attendant service units (13 claims)
     •	  Missing documentation demonstrating attendants' completion of annual training (6 claims)
     •	  Missing prior approval for personal care services provided by a legal guardian or attorney-in­
         fact (3 claims)
     • 	 Missing attendants' cardiopulmonary resuscitation ("CPR" ) certification (1 claim)
     • 	 Payment of pea services for dates when recipient was in hospital (1 claim)
     • 	 Missing physician's authorization (1 claim)

As is shown in the following paragraphs, while some of the alleged deficiencies do indicate that claims
were paid that should not have been paid, almost half of the alleged deficiencies involved technical or
documentation problems that do not support a conclusion that payments were improperly made.2

We respond to each of the six categories of "deficiencies" below.

1. Unsupported Attendant Service Units
Draft Audit Finding: The OIG determined that for 13 of the sampled claims Ambercare failed to provide
documentation supporting the number of units claimed for attendant services.           The total allegedly
deficient portion of these 13 claims is $1,586.23 .

MAD Response:       MAD concurs with the OIG's determination that in certain instances, the amounts
claimed by Ambercare exceeded what should have been billed by $1,586.23. For each claim at issue,
MAD compared the units documented on the time sheets accompanying Ambercare's claims with
CoLTS' records of the units for which Ambercare was paid, and determined that Ambercare claimed and
was paid for units exceeding those reflected on Ambercare's submitted time sheets. In several cases,
these records demonstrate that Ambercare claimed units exceeding the recipient's approved Plan of
Care. MAD notes, however, that the amount of the overpayment is only a minute percentage of the
total PCO claims reviewed. The $1,586.23 in exce ss billings is less than 1.5 percent of the $111,572.35 in
peo claims contained in the 100 cases included    in the audit review.

2. 	Missing Annual Training Documentation
Draft Audit Finding: The DIG auditors found that for 6 of the 100 sampled claims Ambercare lacked
documentation showing that attendants had completed 12 hours of training in the calendar year in
which they furnished services to Medicaid recipients, as required by section 8.315.4.11A(33) of the New
Mexico Administrative Code (" NMAC") . The claims in question total $5,512.23. The Draft Audit would
reject these claims in their entirety.


2   The Draft Audit also identified two types of deficiencies in Ambercare' s claims that did not violate
either Federal or State law in effect at the time the claims were made:

    •	    Charging for attendants' meal preparation and housekeeping services when attendants and
          recipients live in the same home (47 claims)
    •	    Documenting an attendant as simultaneously performing services for 2 recipients living in the
          same household (2 claims)



                                                                                               3 1 Page
                                                                                                         Page 60f18




MAD Response: Federal law does not require attendants to undergo a specified amount of training in
the calendar year in which they furnished service, and therefore there is no justification for withholding
federal funds based on a finding that such training was not provided. Even assuming that the State
requirement had been violated, State law does not require withholding payment from providers where
the requirement is not met.

Enforcement of a State training requirement by withholding Federal funds, when it is otherwise
apparent that eligible services were provided to an eligible recipient in amounts authorized by a service
plan, is unwarranted . That is particularly illustrated by one of the sample cases, in which the Draft Audit
recommends withholding payment for services that were provided during the first two days of the
calendar year by an attendant who had completed 12 hours of training in the preceding calendar year
and 7 hours of training in the year in which services were furnished, but had not completed an
additional 5 hours of training in the year after providing services on January 1 and 2.         It stretches
credulity to believe that the State would find a violation of its requirements, warranting recovery of
otherwise valid payments in this circumstance.

In these six cases, the record documents that eligible services were provided to eligible recipients in an
appropriate setting in accordance with a physician-approved plan of care . This satisfies the Federal
requirements for federal financial participation (UFFP"), and the failure to meet a State training
requirement, even if proved, does not justify withholding that FFP.

3. Missing Prior Approval of Legal Guardian or Attorney-in-Fact Services
Draft Audit Finding: The Draft Audit determined that for 3 of the 100 sampled claims Ambercare did
not provide evidence that MAD issued prior approval for personal care services provided by the
recipient' s legal guardian or attorney-in-fact, as required by section 8.31S .4.l1A (21) of the NMAC. The
3 aliegedly deficient claims total $1,16S.94. The Draft Audit would reject these claims in their entirety.

MAD Response: Federal law does not require prior State agency approval for a legal guardian or
attorney-in-fact to provide paid personal care services, and therefore there is no justification for
withholding Federal funds based on a finding that such approval was not provided.         Even if the State
requirement had been Violated, State law does not require withholding payment from providers where
the requirement is not met.

In all 3 of these cases, the record documents that eligible services were provided to eligible recipients in
an appropriate setting, in accordance with a physician-approved plan of care. This satisfies the Federal
requirements for FFP, and the failure to meet a State requirement of prior approval for legal guardians,
even if proved, does not justify withholding that FFP.

4. Missing CPR Certification
Draft Audit Finding: The OIG auditors determined that in lout of the 100 sampled claims Ambercare
could not provide copies of the attendant's CPR certification as required by section 8.31S.4.l1A (2)(d) of
the NMAC. The amount of the claim in question is $345.15. The Draft Audit would reject this claim in its
entirety.


                                                                                                41 Page
                                                                                                        Page 70f18




MAD Response: There is no Federal requirement that an attendant be certified for CPR, and therefore
no justification for withholding Federal funds based on a finding that such approval was not provided.
Even ifthe State requirement had been violated" State law does not require withholding payment from
providers where the requirement is not met.

Moreover, the absence of such certification from only 1 of the 100 case files reviewed does not support
a conclusion that the provider in that one case did not have the required CPR certification. In fact, the
existence of the certification in every other sampled record demonstrates that the provider uniformly
required that certification to be obtained.     The absence of evidence of the certification in one case at
best shows only that the certification document was lost or misplaced-not that certification was not
secured.

s.   Services Paid While Recipient Was in Hospital
Draft Audit Finding: The DIG auditors determined that for 1 of the 100 sampled claims Ambercare was
paid for personal care services for dates when the recipient was in a hospital. in violation of 42 C.F.R. §
440.167 and section 8.315.4.138 of the NMAC. The allegedly overpaid portion of the claim in question
amounts to $391.44.

MAD Response:       MAD concurs with the DIG's determination that in 1 case the record shows that
payments were made for services provided on dates when the recipient was in a hospita1.           We have
asked Ambercare to review this case and to advise whether its claim covered services provided to its
recipient while the individual was hospitalized.       Even if true, this appears to have been an isolated
circu~stance   that is not reflective of a pattern or practice of this provider.

6. Missing Physician Authorization
Draft Audit Finding: The DIG auditors found that for 1 of the 100 sampled claims Ambercare did not
have records demonstrating that the recipient had obtained prior physician authorization for the
furnished services, as required by 42 C.F.R. § 440.167 and section 8.315.4.16AI1) of the NMAC. The
amount of the claim in question is $672.86. The Draft Audit would reject this claim in its entirety.

MAD Response: The absence of a physician authorization form in only 1 of 100 sample cases does not
support a conclusion that the services in that 1 case were not provided pursuant to a physician's
authorization. The requisite forms were apparently found in the other 99 case records reviewed. The
far more reasonable conclusion from these facts is that the evidence of the physician's authorization in
the one case was lost or misplaced. The existence of the necessary documentation in the other 99 cases
is powerful evidence that the provider's uniform practice was to secure such authorizations prior to
rendering the service. In fact, it is difficult to see how the service could be provided in the absence of a
physician's authorization, which would normally accompany the development of the service plan for the
reCipient.

Moreover, Ambercare was able to produce a physician authorization form for the 1 case. But because
of the poor quality of the handwriting, it is not possible to decipher the date of that form. Nevertheless,
the existence of the form supports the conclusion that the service in this case was pursuant to a


                                                                                                51   Page
                                                                                                       Page 80f18




physician's authorization, and corroborates the conclusion that is clearly warranted based on the
otherwise uniform showing of the required forms in the other 99 sample cases.

7. Other pea Matters
Draft Audit Finding: The OIG auditors found that for 47 of the sampled claims Ambercare charged a
total of $17,755 in attendants' meal preparation and housekeeping services even though the attendants
and recipients lived in the same home. The OIG determined that at the time, such claims did not violate
Federal or State law; however, the State has since amended sections 8.315.4.16 and 8.315.3.17 of the
NMAC to prohibit such claims.

The Draft Audit also found that for 2 of the sampled claims Ambercare billed the State for attendants'
simultaneous performance of services for two recipients who lived in the same household . The OIG
determined that such claims did not violate either Federal or State law, although it concluded that
paying twice for the same unit oftime may not always be reasonable .

MAD Response:       MAD concurs that neither claims for meal preparation and housekeeping services
provided by an attendant living in the recipient's home, nor paying twice for the same unit of time,
violated Federal or State law in effect during the time period covered by the Draft Audit .


E. State Policy Changes and Compliance Measures
AS shown above, since 2009, pca services have been provided in New Mexico entirely through the
CoLTS Managed Care System. Two MCas have been responsible for the delivery of the services and for
assuring provider compliance with applicable state and federal requirements. Yet MAD retains ultimate
responsibility for this, as well as all other aspects of the State's Medicaid program, and has mounted a
range of actions to assure that pca services are being provided properly and in compliance with law and
regulations.   The State' s continuing efforts in this area have included a series of regulation changes
adopted in 2010 and 2011, and implementation in 2010 of a Monthly pca Billing and Administrative
Workgroup to evaluate and spur improvement in program performance.              In addition, the State has
taken a number of corrective measures that focus on the areas addressed by the Draft Audit findings, all
of which have been intended to improve provider performance.

The State's efforts at improved performance are continuing.       It has begun planning for an evidence­
based program monitoring system that will enhance the quality of pca services. In addition, it is
exploring the implementation of a telephonic and GPS tracking system, like that used in other states, to
allow for automatic generation of pca provider timesheet entries. There is a $2 million cost associated
with this enhancement.

The Appendix to this Response describes in greater detail the steps that the State has taken and plans
on taking in the near future to assure improved program performance.           The State is confident that
these steps have contributed and will continue to contribute to the high level of performance and
compliance that has characterized its PCO providers, including Ambercare .




                                                                                               61   Page
                                                                                                            Page 90f18




F. Response to Proposed Overpayment Recovery
After calculating that 23 claims or portions of claims derived from the sample resulted in overpayments
of $9,412 .00, the Draft Audit used "statistical software" to extrapolate the total refund due to the
Federal Government to be $954,013.00 in FFP for alleged unallowable peo service claims by Ambercare
from October 1, 2006 through September 30, 2008. The State takes strong exception to this conclusion .

As shown above, there is no justification for recovery of any Federal funds, with or without
extrapolation, with regard to 11 of the 23 questioned claims, which represent $7,696.18, or over 80% of
the $9,412.00 identified as overpayments by the Draft Audit'       For these claims, the findings of the Draft
Audit do not support a conclusion that payments were improperly made. Rather, they show that only a
minute number of files are missing a document that would confirm the satisfaction of a particular
requirement. The DvelWhelming demonstration in the 100 sample case records of compliance with the
requirements in question (securi ng physician authorization for the        pea   services, provider CPR and
service training, and approval for legal guardian service delivery) negates any conclusion of non­
compliance in the few instances where a document was missing from a file .

Further, to the extent the absence of documentation in the case file relates to State requirements,
rather than to provisions of the Federal regulations (a s in the cases of the CPR and service training or the
approval for legal guardian service delivery) it is inappropriate to withhold Federal funding. Nothing in
State law requires that funds necessarily be withheld in any instance where a case record fails to
document compliance with these State requirements.

As to the portions of the Draft Audit relating to excessive billing, the findings reveal no pattern or
practice of non-compliance by Ambercare . To the contrary, of the total of $111,572.35 in      pea claims
reviewed in the audit, only $1,586.23 represented amounts claims in excess of the time reflected on the
timesheets or that was authorized by the service plan. This is less than 1.5 percent of the total amounts
claimed, a level of error considerably lower than the tolerance levels established in various quality
control programs in Medicaid and other federal funded programs.        See, e.g., 42 C.F.R. § 431.865
(establishing a 3% tolerance limit for eligibility errors in the Medicaid Eligibility Quality Control program;
45 C.F.R. §205.42 (1980) (establishing a 4% tolerance limit for payment errors in the Aid to Families with
Dependent Children program).      In these programs, it is standard federal policy, when overall
performance is within the established tolerance limits, to seek recoveries only for specific overpayments
actually identified, and not to extrapolate the results of a review to the case load as a whole . That policy
should be applied in this case, where the level of erroneous payments is as low as it is.



' The Draft Audit concluded that 2 of the sampled claims each had 2 types of " deficiencies": 1 claim had
missing evidence of annual training and unsupported units of payment, and another had unsupported
units of payment and missing evidence of prior State approval of pca services provided by a legal
guardian or attorney-in -fact. In both instances, the Draft Audit used the larger of the "deficiency"
amounts (entirety of the claim for missing annual training evidence and prior approval of legal guardian
or attorney-in-fact services, respectively) in calculating the total Federal share ofthe 23 "deficient"
claims.

                                                                                                   71 Page
                                                                                                        Page 10 ofl8




Similarly, the existence of one instance of a provider claim for a recipient during the time of a hospital
stay (even assuming that Ambercare is not able to provide a satisfactory explanation for this aberration)
is an insufficient basis on which to predicate an extrapolation to the caseload as a whole . If the amount
of the overpayment in this case ($391.44) is added to those in the 13 excess payment cases, the total
overpayments would still be less than 2 percent of all reviewed payments, substantially below the
tolerance levels that have been utilized in federally supported public assistance programs. 4

It should also be mentioned that extrapolation of the results to the caseload as a whole to recover a
substantial amount from the State is inappropriate given the continuing efforts of the State (detailed in
the Appendix) to assure high quality and compliant performance by             pea   providers, even after the
conversion to a managed care delivery system .


G. Conclusion
The results of the alG investigation, reflected in the Draft Audit, are encouraging to MAD, for they
demonstrate an extremely high level of compliance by Ambercare. While there is always roorn for
improvement and the State intends to continue its long standing efforts to enhance performance of its
pea providers, the   results of the Federal review should provide comfort to Federal officials that Federal
funds are being properly spent in the case of Ambercare' s pea services.

Based on the Draft Audit results, the State is prepared to repay $1,413.94," the federal share associated
with the 13 instances of overbilling and 1 instance of billing for a hospitalized patient .




• The total overpayments would be $1,977.67, which is 1.77 percent of the $111,572.35 in total claims
reviewed .
5This amount was calculated by applying a composite FMAP rate of 71.485 percent (the average of the
FMAP rates for Federal Fiscal Years 2007 and 2008) to the sample case overpayment of $1,977 .67.

                                                                                                  81 Page
                                                                                                             Page 11 of 18




          Appendix: State Policy Changes and Compliance Measures
1. 	 Overall   peo Improve ments
Cal Regulation Changes
In the last year, the state has revised and improved the       pea   regulations three times to enhance the
State's ability to ensure that the claims submitted by pea providers comply with Federal and State
regulations.

September 15, 2010 PCO Regulation Changes:
   •	   Added language to the ColTS managed care regulations clarifying the respective roles and
        responsibilities of MCOs and TPAs;
   •	   Added language requiring MCOs to identify Natural Supports; and
   •	   Added language requiring MCOs to assess services provided to pea consumers who share a
        home.
December 30, 2010 PCO Regulation Changes:
   • 	 Added language throughout the pea regulations clarifying that an inpatient or resident of a
       hospital, nursing facility, Intermediate Care Facility forthe Mentally Retarded (ICF-MR), mental
        health facility, correctional facility or other institutional setting (except for recipients of
       community transition goods and services) is not eligible for pea services;
   • 	 Added language clarifying that duplicative pea services are not allowed for individuals receiving
       the same or similar services by other sources, including natural supports;
   • 	 Added cognitive assistance as a service within each ADl and IAOl service rather than a stand·
       alone service;
   • 	 Required a legal representative for self-directed individuals who cannot make their own choices
       or communicate their responses;
   • 	 Restructured consumer delegated and directed regulations to avoid repetition and to describe
       adequately the roles and responsibilities of pca agencies, caregivers, and beneficiaries;
   •	   Replaced the MAD 075 Medical Assessment Form with the Income Support Division (150)379
        Medical Assessment Form, which can be completed using form fields for entry;
   •	   Clarified which pea services are or are not covered by Medicaid;
   •	   Reduced the hours in which temporary authorization is given, and made this requirement
        applicable to all new pea recipients; and
   •	   Included in the regulation MAD ass, the pca Service Guide, which helps standardize and ensure
        the accuracy of the calculation of time in which pea services are furnished . For each pea
        recipient function level, the Guide provides a narrative or worksheet establishing standard
        service time ranges .

September 15, 2011 PCO Regulation Changes:
   •	   Revised the MAD 055 (pea Service Guide) to combine the pre-existing 10 pca services into 6
        service categories, and to determine appropriate service time ranges for each service:
            1. 	 Hygiene and Grooming-Bathing, dressing, grooming and doctor prescribed skin care;
            2. 	 Bowel and Bladder;
            3. 	 Preparing Meals;
            4. 	 Eating;



                                                                                                          Page   11
                                                                                                         Page 12 of 18




               5. 	 Household and Support Service-Cleaning, laundry, shopping and minor up-keep for
                    medical equipment; and
               6. 	 Supportive Mobility Assistance-Special help transferring from one place to another,
                    walking, and changing positions, provided that such assistance is not part of another
                    pea service.
           Each service includes time spent on " Mobility Assistance" and spoken reminders (called
           "Prompting and Cueing"l;
      • 	 Prohibited prior authorizations (PA) that are retroactive or extend beyond the level of care
           ("lOC") authorization period;
      • 	 Permitted an   Mea to authorize time outside of the time set forth in the MAO ass for furnishing
           services to a beneficiary based on his or her verified medical and clinical need(s);
      • 	 Required MCas to discuss with the consumer the results of the service assessment, function
          level for each pca task on the MAD ass, and the applicable service time range during the in­
          home service assessment;
      • 	 Required MCas to make a good faith effort to conduct a pre-hearing conference for
          beneficiaries who request a State fair hearing. During the pre-hearing conference, the Mca
          must explain how it applied the pca regulations, and examine whether additional service time is
          necessary based on a consumer's verified medical and clinical need(s);
      • 	 Clarified that under section 8.352.2 of the NMAC, a pca recipient who disagrees with the
          authorized number of hours may utilize the CoLTS MCa grievance and appeal process and the
          State's fair hearing process consecutively or concurrently; and
      • 	 Clarified that the beneficiary, not the provider, is responsible for repaying the cost of continuing
          benefits pending a fair hearing decision.

(b)   peo Billing and Administrative Workgroup
In 2010, in addition to amending the pca regulations, MAD implemented a new Monthly pca Billing and
Administrative Workgroup to evaluate pca provider and CoLTS MCa billing and administrative issues,
and to improve the program's performance. The Workgroup was made up of several pca providers,
Mca staff, and representatives from several State Bureaus (CoLTS, Long Term Care Services and Support
(LTSSB), Quality Assurance, Contract Administration and Program Information).

The Workgroup identifies systemic problems in the pca program, root causes for such problems, and
possible solutions. In particular, the Workgroup has been tasked with improving the following areas of
the PCO program :

      • 	 Eligibility;
      • 	 MCa Assessments/Authorizations/Hours;
      • 	 TPAllevel of Care;
      •	   Service Coordination;
      •	   Transfers from one agency to another;
      •	   Provider Education;
      •	   Billing; and
      •	   Fraud and Program Integrity.

The Workgroup has developed a pca survey and used the findings from the survey to further refine
areas of needed improvement. Many of the regulation changes identified above originated from this


                                                                                                  ZI Page
                                                                                                              Page 13 of18




    Workgroup to correct error-prone areas.       The committee members have also developed work and
    process flows to help clarify   pea   roles and responsibilities, and identify opportunities for program
    improvement.

The Workgroup is chaired by the CoLTS Bureau Chief, in collaboration with PCO providers and MCOs.
The     pea Service   manager updates the Workgroup's work plan to ensure that it is accountable for, and
successfully addresses the areas of the     pea program listed above.

    Cc) Continuous Quality Improvement ceQI) Model for PCO
    MAD recognizes that an evidence-based approach to program monitoring is one of the best ways to
ensure that     pea services are administered    in the manner specified in the Federal and State regulations,
and safeguard participants' health and welfare .            MAD will design and adopt an evidence-based
approach to PCO quality modeled after CMS's CQI model for Home and Community Based Services
    (HCSS) waivers.   Planning for this initiative will begin in October 2011, and a reporting mechanism will
    be in place by January 2012.

    MAD's CQI model will impose requirements similar to the statutory assurances states make to CMS as a
condition of approval for a HCBS waiver through assurances and sub-assurances structured in a manner
similar to the following:

                           Example #l-Modeling PCO CQI after HCDS Waivers
                             Persons enrolled in PCC have needs consistent with an institutional level of
1. Level of Care
                             care.
                             lParticipants have a service plan that is appropriate to their needs and
2. Service Plao
                             preferences. and receive the services or supports specified in the service plan.
~. Provider                   PCO providers are qualified to deliver services or supports.
   Qualifications
                              Participants' health and welfare are safeguarded, and pca Attendants are
4 . Health and Welfare
1                             trained, certified and qualified to provide pca services.
5. Financial                  Claims for pca services are paid according to State and CoLTS MCa payment
       Accountability         methodologies specified in the regulations and Mca handbooks.
6. Administrative             MAD is actively involved in overseeing PCO services and ultimately
   Authority                  responsible for all facets of such services.


                                        Example # 2-Sub-Assurances
1. Level of Care              The levels of care of enrolled participants are reevaluated at least annually
                              0    Service plans and IPoCs are updated or revised at least annually and upon
                                   participant need.
2. Service Plan:              0    Services are delivered in accordance with the IPoC, including the type,
   Individual Plan of
                                   scope, amount, and frequency specified in the service plan.
   Care (IPoC]
                              0    Participants are afforded choice between the delegated and self-directed
                                   services model, and providers.
                             The state and Mca verify that providers initially and continually meet required
3. Provider
                             licensure and/or certification standards, and adhere to other state standards
   Qualifications
                             before waiver services are furnished.


                                                                                                     31   Page
                                                                                                             Page 14 of 18




                             iThe state and Mea verifies that attendants initially and continually meet
!1'4. Atteodaot              required training and certification standards (including CPR and criminal
    Qualificatioos           history screening), and adhere to other state standards before peo services are
                             administered.

Similar to the    Hess   CQI model. MAD will use "Discovery" methodology in the monitoring process to
uncover deviations from program design.           Discovery will allow Program managers to know when
program processes are not being followed, and when the assurances and sub-assurances are not being
met. MAD will establish performance measures that (1) are measurable and can be included as a
metric, (2) have facial validity, (3) are based on a correct unit of analysis, and (4) are representative.
MAD will further identify (1) the data source(s) for each performance measure; (2) a method for
assuring that the data will be representative; (3) information on the party or parties responsible for
coUecting, reviewing, and using the data to manage the program; and (4) the frequency with which
summary (Le., aggregated) reports will be generated and reviewed.

When the State identifies instances in which the pca program is not operating as intended and does not
comply with State and Federal regulations, the State will initiate remediation actions to address and
resolve all uncovered, individual problems. The pca Billing and Administrative Workgroup will review
and advise on the remediation process.


2. Corrective Measures Relating to Ambercare Deficiencies
The State has taken several corrective measures that address the deficiencies identified in the Draft
Audit, and provide assurance that claims submitted by Ambercare and other pca service providers
comply with Federal and State law.

(al Supported Units of Payment

Following the audit period covered by the Draft Audit, pca services managed through the CoLTS
managed care contract have significantly changed the way that pca services are billed and paid.

Mcas now require each pca agency to obtain Mca authorization for pca services and timesheets
before a claim will be paid.     Each MCa has claim processes in place that include methods for assuring
that no unsupported claims are paid, including data mining to review units claimed, authorized units,
biUed claims, and paid claims. In accordance with the State CoLTS contract, each MCa must investigate
pursuant to internal compliance procedures and report all instances of fraud, waste, or abuse within 5
business days of detecting suspicious activity to MAD's Quality Assurance Bureau (QAB).

The MCas investigative unit must employ a consistent investigative strategy that includes logical
investigative plans with defined and appropriate investigative measures. In conducting its investigation,
the Mea may contact the complainant to verify the allegations and request pea records from the
provider. The Mea must review and research the provider's contract and claims exposure, and any
public records pertinent to the allegations. The Mea's report to MAD must identify the pea provider at
issue by name, address, and Mea and National Provider Identification (NPI) numbers. In addition, the
notification provides information on the affected beneficiar(y/ies), date, source and nature of


                                                                                                   41 Page
                                                                                                      Page150f18




complaint, approximate dollars paid, and a description of the allegations and preliminary findings. The
MeO's report constitutes a " notification of complaint ."

If QAB refers the allegations to the Office of the Attorney General (AG), the MeO investigative unit
assists the AG's office in a supportive role. If QAB does not refer the allegations to the AG's office, the
investigative unit may pursue recoupment.

Since 2008, to ensure compliance with Federal and State     peo   requirements, the State (AlTSO or MAD' s
current Quality Assurance program) has conducted site reviews of selected      peo agencies.   During these
site reviews, the State has compared   peo providers' timesheets against the approved plans of care and
Meo authorizations. When deficiencies are identified, the State issues corrective action plans.

In addition, the revisions the State made to pca regulations in September 2010 and December 2010
stressed the importance of timesheet accuracy. The technical assistance documents provided at pca
tra inings, and posted on the ALTSD and MAD websites include a section on "Ensuring Timesheet
Accuracy."   The State holds quarterly trainings for providers on pca requirements including those
relating to timesheets, and has scheduled a webinar for October 2011 on the revised regulations that
went into effect in September 2011.

(b) Annual Training

In September and December 2010, the State revised the pca requirements to stress the importance of,
and adopt measures to facilitate, compliance with the training requirements.

First, the State provides staff training materials and technical assistance electronically to PCO agencies.
Guidance on the training requirement, documentation required to demonstrate compliance with the
training regulations, and the technical assistance documents provided at trainings are posted to the
ALTSO website . The State is working to move these materials to MAD's website. MAD also sends
updates on pca to the Executive Director of the New Mexico Association for Home and Hospice Care,
who then regularly sends the updates to pca agencies through regular email blasts.

Next, both of ColTS MCOs-Evercare and Amerigroup- provide PCO agencies with continuing
education regarding the State regulatory requirements and responsibilities. Evercare provides such
education both quarterly and monthly, and documents attendance at such events. The MCOs also
stipulate in their contractual agreements that pca agencies are required to abide by all State and
Federal rules of regulations, including the 12 hours of annual training.

    •	   Evercare's Compliance team conducts year·round desk audits of PCO agencies that pull the files
         of a random sample of agencies over a 9 to 12 month time period. If the Compliance team
         provides Quality of Care, or fraud , waste, and abuse reports, the sample size and timeframe
         reviewed may be expanded. Following the audit, the pca agency receives either an apportunity
         Plan for Improvement or a Corrective Action Plan. Non-compliance with the latter risks
         contractual termination of the pca agency's contract with Evercare.

    • 	 Amerigroup' s Quality Management Department (QMD) regularly reviews pca documentation to
        investigate beneficiary complaints, critical incidents, and other quality improvement initiatives.
        If a review indicates that pca requirements have not been met, Amerigroup's QMD will contact
        the PCO agency to obtain poliCies and procedures for personal care attendant qualifications,


                                                                                                5) Page
                                                                                                     Page 16 of 18




        training records, and corrective action plans explaining what steps the attendant can take to
        comply with pea requirements . If an agency' s failure to comply with pea requirements is
        egregious and/or the agency does not comply with the request for a corrective action plan,
        Amerigroup initiates sanctions ranging from a moratorium on new authorizations and transfers,
        to termination of the pea agency's contract.

(c) Prior Approval of Legal Guardianship or Attorney-in-Fact Services
Beginning in 2009, the training required of new    pea   providers took care to emphasize the importance
and the process of approving a legal representative to be a beneficiary's paid attendant. Effective
December 2010, MAD's revised          pea   regulations clarified the difference between a personal
representative and a legal representative, while continuing to emphasize the need for the State' s prior
approval of appointment of the legal representative. Technical assistance documents provided at the
trainings and posted on the AlTSD and MAD websites further reinforce this regulatory requirement, and
provides guidance on the information needed to obtain approval.

The MCa Service Coordinators assist in assuring compliance with the prior approval for paid legal
representatives requirement. If the Service Coordinator discovers a legal representative acting in the
role of the paid attendant without obtaining prior state approval, he/she will alert the pca agency. In
addition, if a beneficiary communicates to the Service Coordinator either at the time of assessment or
by calling the Customer Service line that he or she wishes to employ their legal representative as his or
her paid attendant, the Service Coordinator contacts the pca agency, on the beneficiary's behalf, to
facilitate the process. The request is documented in the beneficiary's file .

(d) CPR Ce rtification
The MCOs stipulate in their contractual agreements that pca agencies are required to abide by all State
and Federal regulations, including requiring all attendants to have current and valid CPR certifications.
As detailed above in the discussion of corrective strategies relating to the annual training requirement,
MCa has established strategies for assuring compliance with the CPR certification requirement.

Since the transition to Managed Care, pca providers have been required to develop an IPoC service plan
in accordance with the services authorized by the consumer's MCO. Agencies must keep on file the
MCa' s authorization for services.

(e) Services Claimed While Recipient Was in Hospital

Practically speaking, because the majority of PCO beneficiaries are dually eligible for Medicaid and
Medicare, ColTS is not the primary payer and hospitals are under no obligation to report inpatient
admissions. Nonetheless, MCaS must put in place claim processes that assure that providers are not
paid for services purportedly furnished to beneficiaries while they are in the hospital. If the MCa learns
that a person for whom pca services are authorized has been admitted to a hospital, the MCa may
terminate the authorization for the pca services. When pca providers are reimbursed for services
claimed for dates when the beneficiaries are in fact in a hospital, and the claim has already been paid, a
MCO' s investigative unit is required to independently investigate the claim. If the investigative unit
determines that the MCO was billed for services that were not furnished, the investigative unit must



                                                                                              61 Page
                                                                                                       Page 17 of18




forward its findings to MAD' s QAB. The   Mea may seek recoupment, and if necessary, assist the AG in its
investigation.

(f) 	 Physician Authorization
As explained above, the State's managed care system requires     pea providers to develop an   IPoC service
plan consistent with the services authorized by the peo, and to keep on file the MeQ' s authorization.

Each Mea tracks lOC-approved time spans authorized by the TPA and sends the authorizations to the
pea agencies on a tracking sheet.          Additionally, MCOs track the LOC expiration date so that
beneficiaries can be notified at least 120 days prior to the expiration date so the beneficiary can begin
collecting information needed to renew the LOC o If the renewal documentation is not submitted in the
next 30 days, MCas send a second letter to the beneficiary again requesting the documentation . This
letter instructs the beneficiary to take two attached forms to his or her physician for completion, and to
return the forms to the MCa via e-mail or fax . Each MCa also works with the state to identify any
beneficiaries for whom the Lac period is unclear to avoid gaps in the LaC process. MAD and the MCas
are currently revising this notification process to ensure compliance with Federal regulations .

3. 	Other peo Matters
When it revised the pca regulations in December 2010, MAD introduced a pca Service Guide to record
observations and responses to an individual' s functional level and independence to perform ADls and
IADLs. The guide provides an impairment rating system for identifying pca services and service time
ranges. The guide requires a service coordinator to identify and record whether the beneficiary shares a
household with other pca recipients and name the other pca recipients .                The new pca rules
strengthened the regulations to clarify that duplicative pca services are not allowed for individuals
receiving the same or similar services by other sources, including natural supports.

Also, each MCa monitors shared households to prevent duplication of services through the following
strategies:

    • 	 Staff report alleged shared household fraud, waste, or abuse to the compliance unit via the
        MCa internal reporting process. Such an allegation opens an investigation that reviews the
        allegation and recommends to the pca agency that particular action be taken, such as
        terminating the attendant or discharging the recipient from the pca program.
    • 	 Service Coordinators are trained to consider shared households when completing the Functional
        Assessment Guide MAD 055. If a pca recipient resides in the same household as another
        recipient, and the two recipients receive services through different MCas, the recipients'
        Service Coordinators ascertain which tasks each recipient receives, and how many and
        attendant hours are provided . The Service Coordinators then determine the hours needed for
        each recipient based on his or her individual needs. The MCas work collaboratively with the
        pca agencies and with each other to identify scenarios in which one caregiver may be working
        for multiple agencies and clients and attempting to be paid for overlapping hours (e.g. receiving
        80 hours pay for two pca beneficiaries in a shared household with overlapping services such as
        meal prep and housekeeping).



                                                                                                   7l P,ge
                                                                                                     Page18of18




4. Planned Upgrade in Service Reporting
The State hopes to put in place a telephonic and GPS tracking system already implemented by several
other states, including New York and Washington, that would enable time sheets to be automatically
generated . Under this system, each day, either an attendant would call in whenever he or she begins
and finishes providing   pee   services to each beneficiary, or the attendant' s location would be tracked
using a GPS system to determine when the attendant was at a site to furnish services to a beneficiary.
The system would then automatically fill in the attendant's time sheets and calculate the hours the   pea
provider would claim.     This system should substantially reduce the potential for human errors in
entering time sheets, while minimizing the time required to complete time sheets. The State has
estimated that this system would cost approximately $2 million.




                                                                                               81   Pa ge
